     y.




       IMPLEMENTATION OF THE STATE

     LEGALIZATION IMPACT ASSISTANCE

      GRANTS UNDER THE IMMIGRATION

     REFORM AND CONTROL ACT OF 1986


                              OVERVIEW




          f.P.VJClS'
                       ljJ'




'0



          )'d3Q



OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS
                                         FEBRUARY 1990
                                                                                                .-




                         OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector General (OIG) is to promote the effciency, effective­
ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing method to detect and prevent fraud, waste, and
abuse. Create by statute in 1976, the Inspector General keeps both the Secreta and the Con­
gress fully and curently inormed about programs or management problems and recommends
corrtive action. The OIG perform its mission by conducting audits , investigations , and in­
spections with approxiately 1 300 sta strategicaly located around the countr.


                   OFFICE OF EVALUATION AND INSPECTIONS


This report is prouced by the Offce of Evaluation and Inspections (OEI), one of the thee
major offces within the OIG. The other two are the Offce of Audit Services and the Offce
Investigations and Enforcement. Inspections ar conducted in accordace with professional
stadads developed by OEI. These inspections are tyicaly short-term studies designed to
detennne progr effectiveness, effciency, and vulnerabilty to fraud or abuse.

This study was conducte to detennne the effectiveness of the sample States ' implementation

and Control Act of 1986. 

of State Legalation Impact Assistance Grants funds awarded under the Immgrtion Reform




The report was prepard   under   the diction of Don McLaughlin , the Regional Inspector Gen­
eral of Region vn, Office of Evaluation and Inspections. Parcipating in this project were the
followig people:





Kansas City                                   Headquarters
Hugh Owens,     Project Leader                Albert J. Nace
Julie Quir                                   Debra Robinson
Doris Phillps
Raymond Balandron
James Wolf
Alicia Smith


San Francisco                                New York
Apryl Willams                                Lucile M. Cop
                , : --- . . ' .   . -    : ._ -. ..._,-   .:-"   --   ''   ..           , -   , . -. .   . . . -. - ..- . -, -- -




  IMPLEMENTATION OF THE STATE

LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                                             OVERVIEW




                                        Richard P. Kusserow
                                        INSPECTOR GENERAL




OEI-07 - 88- 00440                                                              FEBRUARY 1990
                       . .'   ---   -" '   .c    ..J
                                                       ..-   - -. ' .   '"   "'.'''   '+''




                                                EXECUTIVE SUMMARY


PURPOSE
The purose of ths inspection was to detennne the effectiveness of the States
implementation of the State Legalization hnpact Assistance Grants (SLIAG) progr, identify
potential problems early in the process, and identiy good practices which could be shared
with al States.


BACKGROUND

The SLIAG progr was established under the Imgration Reform and Control Act (IRCA)
of 1986 to reuce the fmancial burden of providig public assistance, public health assistace,
and educational servces to eligible legalzed alens. In Fiscal Year (FY) 1988, $928. mion
in progr fuds were alocated to States, and funds wil continue to be allocated though FY
1991. These funds also cover admstrtive costs for implementing SLIAG at the State and
local levels. Payments are made for public assistace activities generally avaiable to
needy individuals and public health assistance servces offered under the States ' public health
progrs. The payments also cover educational servces designed to assist eligible legalized
alens to attain a satisfactory level of performce in school and to achieve English language
proficiency and citizenship skils necessar to become permanent residents or any educational
servces authorized by the Adult Education Act. The Famly Support Admnistration (FSA) is
responsible for admnistering the program.

Because SLIAG was a new progr, FSA realzed that problems would surace early in its
implementation. In addtion to the norm diculties encountered in creatig new processes
and procedures, FSA recognized that SLIAG would have unique problems. Some of these
issues include the diversity of programs which SLIAG encompasses, cultural and language
barers associated with the servce population , maintaning confidentialty of information , and
the extremely short time      fresfor the grant award process.

METHODOLOGY

In response to the anticipated dificulties with implementing SLIAG, FSA requested that the
Offce of Inspector General (OIG) conduct reviews in 10 States to detennne the progress of
States ' implementation of this progr. The FSA selected nine States and the Distrct of
Columbia because of the varety of programs they offered, the number of eligible legalized
aliens in the population, or the amount of the                    grt
                                                     award: The nine States are Arzona,
California, Colorado, Florida, Ilinois, Massachusetts, New York, Texas, and Washington.

Interviews based on strctured discussion guides for each major program ara, as well
documentation furished by FSA and State and local offcials, built the base of information for
this report. This report represents an overview of the sample States ' implementation of the
SLIAG program as of August 1988.
                                      .. ' . ''-"-    . .,::. '   : ! -" '
                                                                             C., .,- - -,
                                                                                            . ..




 FINDINGS


. Both FSA and the States were committed to identifying implementation problems and
 developing effective solutions to them.


 Since 1987, FSA has held national conferences and issued information to States on
 implementing the SLIAG program.

 The States have developed innovative approaches to effectively and effciently implement the
 SLIAG progr.


 Nevertheless, we   found inefficiencies and vulnerabilitis needing attntion                       by   FSA and the
 States.


 The FSA application review process created a number of significant problems for the States.
 Also, the FSA' s application review process interfered with the States ' abilty to plan for
 servces.

 The FSA' s definition of public assistace includes some public health assistace activities.
 Ths created admistrative    and   service delivery problems for States ' public health agencies.

 Confictig interpretations of the term "public charge " has caused uncertaities for the aliens
 as to what servces they ar entitled to receive without fear of deportation.

 The FSA' s policy of denyig payments for servces rendered by community- based
 organizations and qualified designated entities prior to the application approval date caused
 dificulties.

 States were unable to access minimal eligible legalzed alien information in the Immgrtion
 and Natualization Service (IS) files.

 Some States ' systems and procedurs to identify eligible legalized aliens were nonexistent or
 only in developmental stages at the time of this review.


 The SUAG funds allotted to the States greatly exceed actual expenditures to date.


 Out of $2 billon appropriated in FYs 1988 and 1989, as of June 30, 1989, only 20 percent has
 been drwn down by the States or set aside for reimbursement of Federa expenditures. This
 discrepancy makes the program extrmely vulnerable to potential waste.
                                                        . /­




RECOMMENDATIONS


The FSA should make its application and grant award process more orderly. Specifcally
FSA should 

                     provide definitive wrtten instrctions on the SLIAG application requirements
                     and establish a dialogue with the States on SLIAG policy, compliance, and
                     reportg issues to minimize the confusion that occured in the initial application
                     process;

                     ensur that suffcient time is allotted to the application process, including the
                     State s initial application , FSA' s review and formal comment, the States
                     consideration of FSA comments, negotiation of disputes, and submission of
                     revised applications for FSA approval;

                     revise the grant award process for approved applications so that the notice of
                     grant award reaches the States prior to the beginning of the fiscal year; and

                     develop an appeals process to use if program or costs associated with providing
                     services are denied in the initial application process.

The FSA should reconsider its positin to classif certain public health services as public
assistance and make approprie adjustments to this positon.

The FSA and the INS should further clarify what is meant by ' 'public charge " and widely
disseminate this information to the aliens who have raised concerns about their resident
status.

The FSA should analyze the effect of its policy to deny retroactive payment to
community-based organizatins and qualifed designated entities for services rendered in
good faith, and determine whether a modifcation to its position would be warranted.


The FSA should arrange for INS to conduct matches of State and INS records to permit the
State to make retroactive determinations of SLIAG eligibility for program services that meet
SLIAG funding requirements.

The FSA should follow-up with the States to ensure proper procedures and systems have
been implemented to account for SLIAG expenditures.

The FSA should request the Congress to suspend the FY              1991   appropriation of   $1   billon
until an accurate assessment can be made of State financial needs under SLIAG.
Alternatively, the appropriations for FYs 1990 and 1991 should each be reduced by $500
million.
                                                        . - . ,"   .. -.       '..
                                                                   \'.. . ;--...




FSA COMMENTS

The FSA commented on the drt report. They generaly agreed with our findings and
recommendations and reported having taken a number of steps to improve implementation of
SLIAG. We moded the report to reflect certn concerns and factual matters, mostly of a
technical natue, which they rased. Their comments ar included verbatim in Appendix B.

CONGRESSIONAL ACTION

Since issuance of the draftreport, legislation was enacted (PL 101- 166) that reduced the FY
1990 SLIAG funding level by $555, 299, 00.
                                                   ............. ..............................................
                                                                        ......... .............. ....... ....................
                                                     . .. . - - . . :". .,,,;.................................
                                                                               '           ,-- :., . ,,- . ; " ;, . .. ................... ...




                                         TABLE OF CONTENTS


EXECUTIVE SUMMARY


INTRODUCTION ............ ............. ............... ..... ...                                                                                   ...... 1



ORGANIZATIONAL STR UCTU RE                                                                                                                       .... ..... 3



FINDINGS AND RECOMMENDATIONS .................................................................. 4



FSA COMMENTS AND OIG RESPONSE 



CONGRESSIONAL ACTION                     ... ............................ ..1111...........       .11..... .............     .11..1111.11............ 





APPENDICES

            APPENDIX A: Good Practices..................II.....II........ID......II....1I...... ...... ... A - 1


            APPENDIX B: FSA' s Comments .....8..... .."..........I1........I1.....II..IIII.IIIUIIIII........... 8                                      - 1

                                                  - . "- - ' .   :- .. ,-.   _. ',:'''    .,         ,.
                                                                                         . ':. :. .. ";, '-.             ,_. .
                                                                                                               _.. __ .- :
                                                                                                                    n ..
                                                                                                                                 .. - - . ' - .




                                     INTRODUCTION



PURPOSE
The Famy Support Admnistrtion (FSA) requested that the Offce of Inspector General
(OIG) conduct an inspection in nie States and the Distrct of Columbia to determe the
effectiveness of the States ' implementation of the State Legalzation hnpact Assistance Grants
(SLIAG) progr awarded under the hngrtion Reform and Control Act (ICA) of 1986.
These inspections included reviewing mechanisms in place to identiy these fuds and
determe whether present or projected policies and procedurs adhere to FSA guidelines.
The FSA also was interested in identig potential problems early in the process and any
goo practices which could be shar with al States. Ths report presents an overview of
those issues identified that reuir FSA' s attention and a summar of the goo practices found
durg this inspection.
BACKGROUND

Under IRCA, eligible legalzed aliens may apply for permanent residency within a I- year
period afer they are first eligible (Le., by the 31st month after they receive temporar resident
status).

This new population wil   increase thedemand for State public assistance and public health
assistace servces sigificantly. It wil also increase the demand for State educational
servces as these new residents obtain English language and civic skills needed to become
  S. citizens.

To help States defray many of the costs of providing public assistace, public health
assistace, and educational services to eligible legalized aliens, IRCA authorized $1 bilion
each year from Fiscal Year (F) 1988 though 1991 for SLIAG grants, less an amount
identiied as the "Federa offset. " With few exceptions, eligible legalized aliens are ineligible
for federaly funded public assistance progrs such as Aid to Famlies with Dependent
Chidrn (AFC), Food Stamps, and Medicaid. The "Federal offset" is the estimated cost to
the Federal Government of providing these services or benefits to those few legalized aliens
who are eligible for them. In FY 1988, the law provided $928. 5 millon to be allocated to
States.

To receive SLIAG funds, States must apply to the FSA Division of State Legalization
Assistace, which is responsi le for approving applications and admnistering the program.
The application must be approved in tota for a State to receive any SLIAG funds. The FSA
also provides States with technical assistance on policy issues and on the methods used to
estimate costs and veriy actual costs.
                                                  " - .' ,   ,- . :. ' ' ,. - - ,_   ._--   _. ., :" ,   ' ' .,-,.. , ...                        .---
                                                                                                                            . _.- - -".... - ' ...      .   -"          --
                                                                                                                                                                 u, .




The basic requiment for States to claim reimbursement is that costs must be alowable,
reasonable, and allocable. State public assistance and public health assistace program must
be the same ones available to the general public. States cannot create new program in these
areas specifcaly for eligible legalzed aliens. However, States may create new or additional
education progrs for eligible legalzed aliens. States may also claim reimbursement for
progr admnistrative and SLIAG admistrative costs.
The SLIAG funds may be used to pay any SLIAG-related cost, which is defined in regulation
at 45 CP 402. 2 as the expenditue of funds (whether State, local, or SLIAG) for any purose
for which SLIAG reimbursement would be alowable. State and local governments are not
requied to spend their own funds before drawing down SLIAG funds. The maximum SLIAG
reimbursement for educational servces is an average of $500 per year per eligible legalized
alen. Determing progr admnistrtive costs should be made in accordance with the final
regulation at 45 CPR 402. 22.

The FSA is responsible for admstering the program. Because SLIAG was a new program,
FSA realed that problems would surace early in its implementation. In addition to the
norm diculties encountered in creatig new processes and procedures, FSA recognized
that SLIAG would have unique problems. Among them are the diversity of program which
SLIAG encompasses, cultual and language barers associated with the service population
maitaning confidentiality of informtion , and the extremely short tie frames for the grant
award process.

METHODOLOGY

The FSA selected nine States and the Distrct of Columbia for the inspection because of the
varety of program offered, the number of eligible legalized aliens in the population , or the
amount of the grt. The nine States are Arzona , Calfornia, Colorado, Florida, llinois,
Massachusetts, New York , Texas, and Washington. This report provides an overview of the
States ' implementation of the SLIAG progr as of August 1988.

Pror to conducting the inspection ,the OIG developed strctud discussion guides for each
major program activity at the State and local levels. In conducting the reviews, interviews
were held with officials from public assistance, public health assistace, and education.
                                                                       .. -'_.   . :_   ":;, ,.,   - ,--




                           ORGANIZATIONAL STRUCTURE


The organization admistering SLIAG is slightly different in each State. The areas of public
assistace, public health  assistance, and education were assigned to appropriate agencies at the
State level. Public assistance was assigned to the primar public assistance agency within the
specifc State. Public health assistace was generaly assigned to the Deparent of Health or
corrsponding agency within each State. The State s Deparment of Education must be
responsible for SLIAG funds used for educational services. The assignent of functional
responsibilties to the components accounts for most of the varance in organizational strcture
among States.

Each State designated a single point of contact to admnister and coordinate the SLIAG
progr. The single point of contact was usualy the grtee agency, with some States
selectig an agency or person to handle the admnistrative duties separately from the normal
public assistace, public health assistance, and education functions. The majority of States,
however, had assigned the admnistrative and grantee functions to the entity in charge of
public assistace.
                      FINDINGS AND RECOMMENDATIONS



Both FSA and the States were commtted to identiying problems and developing effective
solutions for them.


FINDING: Since 1987, FSA has held natonal       conferences   and issued informaton to
States on implementing the SUAG program.

             The FSA held several national conferences beginning in 1987 to share
             information with States on SLIAG legislation, the implications for States, the
             application process, and the documentation of costs.

             The FSA also provided States with "Question and Answer" issuances and
             demographic data from the Immigration and Naturlization Service (IS).

FINDING: The States developed innovative approaches to effectively and efficiently
implement the SUAG program.

We identified may goo practices developed by the States to make the implementation of
SLIAG more effcient. They are classified into four aras briefly descrbed below. A
cOIlplete explanation of the specifc goo practices appear in the appendi of this report.


             Guidelines for Administration: States developed new methods and procedures
             to handle the addtional adistrative responsibilties that arose in the SLIAG
             program. Many States formed special commttees and groups to deal with the
             varous aspects of SLIAG program admnistrtion.

             Systems to Identify Eligible Legalized Aliens: Many States have implemented
             innovative methods to effciently identify the eligible legalized aliens who
             qualify for services under the SLIAG program.

             Controls for the Distribution of Funds: Systems have been developed in
             many States to more effectively control funds.

             Innovative Approaches to Education: Education       progrs designed for
             eligible legalized aliens are allowed under SLIAG. Several States have
             developed unique progrs and classes to educate legalized aliens.
-.                                                                                     - .- -- -- . . . -.' - ,. . ;" , . .-. ' ~   '..




     Neverteless, we found inefficiencies and vulnerabilties needing attention by FSA and the
     States.

     FINDING: The FSA application review process created a number of signifcant problems
     for the States. Also, the FSA's application review process interfered with the States ' ability
     to plan for   services.


                     Delay in FSA issuing the implementing regulation resulted in the States ' having
                     insufficient time to properly plan for SLIAG.

                     Numerous policy misinterpretations and disagreements resulted because the FSA
                     did not provide definitive written instrctions to assist the States in
                     understandig SLIAG application requirements.

                     The tie frmes for States submittng the initial SLIAG applications , FSA
                     review and comment, and revision of the applications were too short.

                     hnplementing SLIAG- funded programs was delayed because of a significant
                     delay in notifying the States of the grant awar.

                     No formal appeals process exists if program costs are denied in the first level
                     reVIew.



     Accordig to fmal regulations published March 10, 1988, States had to submit the FY 1988
     application no later than May 16, 1988. Revisions to the application had to be submitted by
     July 1 , 1988, and the FY 1989 application had to be submitted no later than July 15, 1988.
     Applications were to contain brief descrptions of the States progrs or services, estimates
     of the States ' SLIAG-related costs for each program or activity for that parcular fiscal year
     (includig inormation of the number of eligible legalized aliens residing in the State), and a
     brief explanation of the methodology used to estimate these costs.

     RECOMMENDATION: The FSA should make its application and grant award process
     more orderly. Specifcally, FSA should

                     provide definitive wrtten instrctions on the SLIAG application requirements
                     and establish a dialogue with the States on SLIAG policy, compliance, and
                     reporting issues to minimize the confusion that occurred in the initial application
                     process;

                     ensure that sufficient time is allotted to the application process, including the
                     States ' initial application, FSA' s review and fonnal comment, the States
                                                                                           , , . . :' "   , '.., -   --. .... -- -- ..




              consideration of FSA comments, negotiation of disputes, and submission of
              revised applications for FSA approval;

              revise the grant award process for approved applications so that the notice of
              grant award reaches the States prior to the beginning of the fiscal year; and

              develop an appeals process to use if program or costs associated with providing
              services are denied in the initial application process.

FINDING: The FSA' s       definiton o/public assistance includes   some public health activities.
This created administrative and service delivery problems for    States ' public health agencies.


Severa program admnistered by the entity responsible for public health assistance under
SLIAG are considered public assistance progrs for SLIAG reimbursement puroses. The
distiction is important because the identication of a service as public assistance requires the
documentation of costs incurd for individual eligible legalized aliens served. If a program
or servce is considered public health, the population ratio method for establishing costs can
be used. Applying this method, costs ar determed by the percentage of eligible legalzed
alens in a service population to almembers of the relevant service population. Ths
percentage is applied to total progr costs to determe how much can be reimbursed with
SLIAG funds.

Whle there is no quarel with the logic of FSA's definition of public assistance versus public
health, the distiction creates serious adnistrtive and service delivery problems for public
health agencies. These agencies, not the public assistance agencies, must develop and
implement new processes for identiying individual eligible legalized aliens in order to
document costs. Public health offcials ar concerned that asking patients about their legal
status wil seriously afect the wilingness of patients who are ilegal residents to access public
health servces. These people often enter the countr with highly contagious diseases such as
Hepatitis B and need treatment immediately. The effect of this policy on the public health in
general is not known at this time.

RECOMMENDATION: The FSA should reconsider its position to classify certain public
health services as public assistance and make appropriate adjustments to this position.

FINDING: Conflicting interpretations of the term "public charge " has caused
uncertainties for the aliens as to what servces they are entitled to receive without fear of
deportation.

Another situation causing concern for the States, regards the definition of the "public charge.
Par of the eligible legalized alien population is   afd to apply for public assistance for fear of
being considered a "public charge. " This, they believe, could jeopardize their chances for
permanent resident alien or citizenship status. In addition , some qualified designated entities
are tellng aliens not to apply for SLIAG-related programs for the same reason. This situation
                                                                             --. ". - '     ...,   ,,,, -, ,::- ' ,:   .             --- -
                                                                                                                           . J' .'




has caused uncertainties in the alen population regarding benefits they may be entitled to and
whether acceptig these benefits would subject them to possible deportation if they
identied as a "public   charge.


RECOMMENDATION: The FSA and the INS should further clarify what is meant by
 public charge " and widely disseminate this information to the aliens who have raised
concerns about their resident status.

FINDING: The FSA' s policy of denying payments for services rendered by
community-based organizatins and qualifed designated enties prior to the application
approval date caused difficulties.

Some community- based organizations and qualed designated entities have provided health
and educational servces to eligible legalized aliens with the understanding they would be
reimbursed for these services by the State. The FSA , however, has established a policy that
services rendered prior to the approved application date could not be reimbursed. This has
placed a financial burden on these providers, who have rendered the service believing they
would be reimbured, but may not get paid for it.

RECOMMENDATION: The FSA should analyze the effect of its policy to deny retroactive
payment to community-based organizations and qualifed designated entities for services
rendered in good faith, and determine whether a modifcation to its position would
warranted.

FINDING: States were unable to access minimal eligible legalized alien information in
INS files.

State records generaly do not provide for identication of eligible legalized alien status.
Although the INS data files contai this information , it is unavailable to other agencies due to
unesolved issues coverig confdentialty and trsfer provision issues. Inabilty to obtai
legalzed alien informtion from the INS fies prevents the States from perfonnng retroactive
identication of services provided to recipients who mayor may not be eligible legalized
aliens. Recent informtion obtained though contacts with FSA indicate that FSA is workig
with INS to establish a way to match fies so statistical data can be obtaied, but not specific
eligible legalized alien data.

RECOMMENDATION: The FSA should arrange for INS to conduct matches of State and
INS records to permit the State to make retroactive determinations of SLIAG eligibility for
program services that meet SLIAG funding     requirements.

FINDING: Some States ' systems and procedures to identify eligible legalized aliens were
nonexistent or only in developmental stages of implementation at the time of this review.
                                                                                                    -".. , '   ::"   : -:" ,. . .




The following items descrbe the major systems and procedures that were absent or not in      full

operation at the tie of the review. These problems were not found in every State.


             Guidelies for detennning allowable     costs for public health and education were
             lackig.

             Systems to identiy individual eligible legalized aliens and validate costs of
             services rendered were lacking, parcularly for public health assistace.

             Methods for determing and documentig admnistrative costs had not been
             developed at the time of the review.

             Planed modcations of accountig systems to control SLIAG expenditus              and
             disbursements had not been implemented.

             Necessar operatig agrements between      the State, counties, and major
             providers contaning the details for implementing SLIAG had not yet been
             formalzed.

             Formal procedures for periodc reviews of cash balances had not been developed.

RECOMMENDATION: The FSA shouldfoHow-up with the States to ensure proper
procedures and systems have been implemented to account for SLIAG expenditures.

FINDING: The SUAG funds allotted to the States greatly exceed actual expenditures to
date.

The hngrtion Reform and Control Act of 1986 provided up to $1 bilion dollars per year
for Fiscal Year 1988 though 1991 , less an offset for certn Federa costs for eligible
legaled aliens. The States have until the close of Fiscal Year 1994 to obligate SLIAG funds
alotted to them durng the  grt period.

As of June 30, 1989, only about 20 percent of the $2 bilion appropriated for Fiscal Years
1988 and 1989 has been drwn down by the States or set aside for reimburement of Federal
expenditures. The States indicate the low costs claied to date are due, at least in par, to
delays in implementig the SLIAG progr. Though our findings support this position, the
SLIAG costs are also afected at least as much by the size of the eligible legalized alien
population and the number of them receiving benefits.

Fewer ilegal aliens applied for legalized alien status than had been anticipated in the passage
of the hngration Reform and Control Act. Though May 12 , 1989, only 1.7 milion aliens
had applied for amesty under the eligible legalzed aliens provision of the Act. This is below
the estiated 2 to 4 millon that were originaly expected to be eligible for SLIAG related
services.

Of much greater signifcance, however, is the fact that information to date indicates that
claims for services ar far below original estimates.

In order to get a better handle on this situation , we obtaied information from the Office of the
Assistat Secretar for Management and Budget about the rate of expenditue of SLIAG
funds in FY s 1988 and 1989. We found that:



             Of the $928. 5 milion allocated to the States for FY 1988 and the $645 milion
             origially allocated for FY 1989, the States have requested reimbursement for
             only $216. 7 millon though June 30, 1989. Of this, $210 is from FY 1988
             appropriations, and $6. 7 from FY 1989.

             Of the $1 bilion approprated for FY 1989, $355 millon      had origially been
             reservedfor Federa expenses. However, claims for the Federa porton of the
             progr were far lower than origially expected and, durng the mid-session
             budget review , the Deparent reduced its estimate to only $100 milion. This
             furer demonstrates the degre to which the demand for SLIAG services is
             faling behind appropriated resources. Moreover, it provides a windfall to the
             States by mang available an additional $255 millon in FY 1989 that had not
             previously been allocated to them. This windfall should furter reduce the need
             for SLIAG funds in FYs 1990 and 1991.




the SLIAG program. 

The graph on page 11 shows the relationship of appropriations to curent    expenditues under




We recognze that this early infonnation , parcularly since FY 1988 was the fIrst year of
SLIAG implementation , provides a limited basis for estiating the needs of the States in
futue fiscal years. At the same time, we believe that it would be unwise to postpone for
several years any adjustments necessar to bring appropriations for ths progr more in line
with actual progr needs. Over-obligating of funds makes the program extrmely vulnerable
to waste. It can lead to situations which promote approval of frivolous or unnecessar
expenditus or in claiming reimburement for items, such as computers and admnistrative
expenses, which ar shared by severa other progrs and the value of which is marginal, at
best to SLIAG. The only ways to avoid such waste ar to intensify program audits or to bring
the obligational authority more in line with expected expenditures. There are no sufficient
audit resources to rely exclusively on that approach.
In enactig the SLIAG program the Congrss took the unusual step of appropriating funds in
advance for 4     year$lbillon for each of FY s 1988 though 1991. Since unobligated funds
from one year can be caned over to the next, the proper amount of obligational authority can
be achieved simply by askig the Congress to withdrw a reasonable amount from futur
appropriations.

In view of the extremely low rate of clais for reimbursement received thus far coupled with
the lower than expected legalzed alien population , it would not be unrasonable to reduce the
SLIAG appropriations substatially.

We also queried the States we had previously reviewed to obta their assessments of the
demand for SLIAG services as of July 1989. With few exceptions, they reported that demand
is less than origialy expected, parcularly for public assistance. Aside from the
implementation delays previously reported, the States attrbute this reduced demand to their
inabilty to identi legalzed alens for whom servces rendered are reimbursable under
SLIAG and to alens ' reluctace to apply for public assistance.

RECOMMENDATION: The FSA should request the Congress to suspend the FY 1991
approprition 0/ billion until an accurate assessment can be mad 0/ State financial
                   $1

needs under SLIG. Alternatively, the appropriatons/or FYs       1990 and should each
                                                                           1991

be reduced by $500 miUion.
. .
      SLIAG Appropriations Far               Exceed Expenditures
      $ Billons

      1.2
                                                             Appropriations
      1.1
                                                             Federal Outlays

                                                             State Claims

                                         unobligated funds
                                            carried over

                   1988 1989 1990 1991 1992' 1993 1994
                                    Fiscal Year
. ,.'-- _.   ._,-
                    -.w
                          _. . .   '.                    .-
                                                              'u_
                                                                    ..   -.   ',   ..- -,   - . _- . '- - -- . -




                                        FSA COMMENTS AND OIG RESPONSE


        The FSA commented on the drt report. They generaly agrd with our findigs and
        recommendations and have taken a number of steps to improve implementation of the SLIAG
        progr, includig clarfyng progr policies and procedurs. We have modfied                                           cert
        aspects of the report based on FSA' s comments. Following is a summ of specifc issues
        raised by FSA and our response to them.

        The FSA questioned the statement that the new population would significantly increase public
        assistace and public health assistance services. Early estiates indicated that large numbers
        of alens would qualfy to access the SLIAG program. The report recognzed that information
        obtaned durg the review detennned that substatial incrases in workloads and
        expenditus could occur in these aras as well as in education. However, we understad from
        recent discussions with States ' offcials that demand for servces nationaly is faling behind
        earlier projections.

        We reportd that no formal appeals proess exists if program costs ar denied in the first level
        review. We agree with FSA' s statement that the Grant Appeals Board does h ve jursdiction
        over matters for withholdig and repayment of SLIAG funds. However, it was the States
        concern that an effective appeals mechanism be in place for issues involving programs or
        costs at the first level of FSA' s review in the application process.

        The FSA's defition of            public assistance included some public health activities which crated
        adstrative and service delivery problems for public health agencies. The                                   010
        recommended that FSA reconsider this position.

        The FSA replied that they see this priary as an issue of cost identication and that they wil
        work with the States to develop methods of documentig costs which ar consistent with
        FSA' s responsibilties as stewar of public funds. We believe that FSA' s actions to identify
        alternative methods is responsive to our concerns.

        We continue to believe that a strct interpretation which permts public health costs to be
        claied only for specific eligible legalzed alens is burdensome to the States and, in many
        cases, would require considerable revisions to the States ' system or statutory requirments.
        However, we do agre that FSA' s use of alternative systems, such as the Cost Documentation
        System and a revised population ratio method system which reflects usage, would enhance
        cost effectiveness without requirng States to develop new systems or make considerable
        revisions to present systems. The population ratio method could be revised to consider not
        only eligible legalzed alens in the service population but usage of those services . by the
        eligible legalized alien population based on information already obtaned from program
        experience. Where appropriate, other alternatives might be used which would produce a more
efficient system for the States and addrss congressional intent that the States would not be
required to establish new or elaborate systems.

Although the responsibilty for the determnation of whether individuals wil become public
charges rests with the INS, we recognize the effort FSA has made to communicate to the
States al information provided by INS on this subject.

At the tie of our review, the States were clearly under the impression that FSA would
disapprove claims for services rendered by community-based organizations and qualified
designated entities prior to the approval of the State s application. In their response, FSA has
stated they have no policy on retroactive denials of payments for such services by these
contrctors. Since our review, FSA has clared this issue and advised States which enter into
contrcts that all costs incurd before the date of execution of the contrct must be fully
documented.

The FSA commented that several of the good practices descrbed under "Guidelines for
Admistration " and " Systems to Identi Eligible Legalized Aliens " appear to be inconsistent
with statutory and regulatory requirements. Under closer review, we found no inconsistencies.
However, we did modfy our descrption of these goo practices to resolve FSA' s concerns.

The FSA made numerous comments to clarfy certain matters       of   fact, policy, or procedur.
We have included these comments verbati in Appendi B.
- -   ,,-   :._   ,,-   -,




                                CONGRESSIONAL ACTION



  We reommended that FSA request Congrss to either suspend the FY 1991 SLIAG
  appropriations of $1 billion or reduce each of the FY s 1990 and 1991 appropriations by $500
  millon. Since  issuance of the draft report, legislation was enacted (PL 101- 166) that reduced
  the FY 1990 SLIAG funding level by $555, 299, 00.
                                       APPENDIX A


                                    GOOD PRACTICES

Each State included in this review had developed and implemented procedures and/or pro­
gram to enhance the effcient operation and adnistration of the SLIAG progr. These
goo practices are organized into four categories and are descrbed below.

GUIELINES FOR ADMITRATION: States developed new methods and procedures
to handle the addtional admnistrtive responsibilties that arose in the SLIAG progr.
These procedurs include


             formg internal advocacy and work grups to faciltate and refine SLIAG
             implementation;

             designating a single point of contact that is separate from the public assistance,
             public health assistance, and education functions to alow grater visibilty;

             establishing a workig advisory group to resolve policy issues and assure State
             deparents are in compliance with SLIAG policies;

             sureyig the State s public assistace, public health assistace, and educational
             servces to assess the organizational needs in implementing SLIAG;

             utilizing a centralized intake proess for all noncitizen applicants for assistance
             to assur adequate and accurate delivery of generally available servces; and

             establishing effective accounting and reportng   systems.




SYSTEMS TO IDENTIF ELIGffLE LEGALIZED ALIENS: A challenge facing the
States in implementig SLIAG has been the identication of eligible legalized aliens. The
States have established varous crative methods for fmding and communicating with this pop­
ulation. These methods include


             using the assigned alien identification number frm the 1- 688 Card (Temporar
             Resident Card) to verify eligible legalized alien status, and assure that only the
             intended population is using SLIAG- funded education programs;
             contracting with an independent consultig fInn       to develop   a system to identify
             eligible legalized aliens and document costs;

             maintaining computerized eligibilty data to faciltate      the verification   process for
             SLIAG- funded services;

             using radio broadcasts in foreign languages to inform the public, including
             eligible legalzed aliens, of available services;

             developing a map showing the concentration of eligible legalized aliens by ZIP
             code to identiy servce delivery centers most affected by SLIAG;


             instrcting local offces to maintain a listofindividuals      detennned eligible for
             SLIAG- funded services;

             requirg organizations offering educational servces to eligible legalized aliens
             to develop significant outrach   and   public relations activities;

             developing tl special cod that identifies an individual as an eligible legalized
             alien;

             using a separate form in the norm enrollment process to identify school aged
             eligible legalized aliens; and

             conducting workshops to acquaint school offcials who are working under
             SLIAG with the varous INS cards.



CONTROLS FOR THE DISTRffUTION OF FUNDS: Systems have been developed in
many States to more effectively control funds. These systems include


             establishing a reimbursement cap for each hour of attendace by eligible
             legalized aliens in educational facilties and using this to account for, limit, and
             avoid duplicate bilings for educational services;




             displaying the costs allowable for SLIAG fundig       on   the stadad application for
             educational providers;

             modifying existing automated accounting systems to accommodate SLIAG and
             prevent reimburement for unallowable expenditurs;
             establishing formal contracts, grts,     or   operating agreements between service
             providers and the State agency;

             using an automated account to determne if SLIAG funds are being disbursed as
             planned or if excesses may accumulate; and

             ensurng providers contracted to perform educational services claim only diect
             adistrative personnel costs to the maimum of eight percent of the
             contractor s total funding.



INNOVATIV APPROACHES TO               EDUCATION:            Of the thee areas covered by SLIAG
(public assistance, public health assistance, and education), education is the only one where
new program designed specifically for eligible legalized alens under SLIAG can be
established. Goo practices designed to fulfill the educational needs of eligible legalized
alens include





             designg new education programs to assist eligible legalized aliens in becoming
             lawful permanent residents;

             sendig eligible legalzed aliens though a pre-appraisal proess to assess their
             educational needs and refer them to the appropriate progrs and program
             levels; and

             contractig with a varety of educational service providers to conduct
             SLIAG-related educational programs.




                                                   A- 3

-_   ,.      '---
          -- .      ...




                           APPENDIX B



                          FSA' S COMMENTS
  . ".."   .. '''
     - '"-.!p.
.-.. -




                        I'EPARTMENTOF HEALTH Ia HUMAN SERVIr.F	                   Family Supp rt Administration


                                                                                  Memorandum
         ...a....         September& 26.   1989

         From:            Acting Assistant Secretary
                            for Family Support
         St'bjl!r;f:	     OIG Draft.  Report:Implementation of the State Legalization
                          Impact Assistance Grants Under the Immigration Reform and
                          Control Act of 1986 - Overview      (OAI-07-88-00440)
         To:
                          Richard P. Kusserow

                          Inspector General


                          Attached are the Family Support Administration comments on

                          the above report. Many of our coments are technical
                          nature due to ' the complexity of the legislation and the
                          fact that the SLIAG program was very new at the time of the

                          We appreciate the assistance and cooperation we have

                          received from you in response to our request to conduct this

                          round of reviews of the SLIAG program. The reports we

                          received are very useful to us in understanding how States

                          are implementing the progr




                                                             Catherine Bertini


                           Attachment
..   ..




                                    OIG DRA REPORT:
              Implementation of   the state Lealization Impact Assistance
                                          Grants

                Unde    the Immigration Refora and Control Act of 1986 ­

                                         overview

           The Family Suppo t Administration' s comments are divided into

           three sections:    Comments on background information and other

           narrative material that does not relate directly to the draft

           report' s findings,
                        t s
                                comments on the findings, and responses to the
           draft report     recommendations.
           Narrative:
           Page i (Executive sumary) -- The draft report says that SLIAG
           funds may be used for " educational services designed to assist
           eligible legalized aliens to attain a satisfactory level of
           perfo ance in school and to achieve English language proficiency
           and citizenship skills necessary to become permanent residents.
           The final report should make clear that, by regulation, SLIAG
           funds may be used to provide adults any educational service
           authorized by the Adult Education Act.

           Page 1 (Background) -- The draft report says, "This new
           population will increase the demand for state public assistance
           and public health assistance services significantly.    The draft
           report isn 't cl ar whose conclusion this is or upon what data and.
           analysis the conclusion is based. The final report should
           clarify these points.

           In the course of implementing SLIAG, we have discovered that
           neither state and local public health programs nor, with few
           exceptions, public assistance programs, inquire about legal
           status.   This suggests that at least some aliens were using
           these services before legalization and that newly legalized
           aliens do not . represent a " new population" for public assistance
           and public health assistance services. Preliminary cost data
           from states suggests that newly legalized aliens are accessing
           public assistance services at rates far lower than the general
            population.  There are indications that a backlog of public
          . health needs existed and was identified during the medical
           examinations required of all applicants for legalization.
           However, there is no data to suggest that' , other than this
           temporary bulge in demand for public health services, newly
           legalized aliens will generate a significant increase in demand
           for public health assistance or public assistance services.
           Page 2 (Background) -- The draft report says that reimbursement
           for public assistance and public health assistance "is limited
           only to the amount of state and local funds expended for SLIAG-
           related costs.   SLIAG funds may be used to pay any SLIAG-related
           cost, which is defined in regulation at 4S CFR 402. 2 as the
           expenditure of funds (whether state, local, or SLIAG) for any
           purpose for which SLIAG reimbursement would be allowable. The
final report should make clear that state and local governments

are not re ired to spend their own funds before drawing down

SLIAG funds.
Page 3 (Organiza ional structure) -- The draft report says that
state departments of education are " usually responsible for
  ducation matters. In fact, IRCA specifies     that SLIAG funds to
be used for educational services 

                                   must be paid  to the state
educational agency, which, in turn, may provide services through

local educational agencies or other public or private non-
  profit
organizations. The final report should make clear that state

educational agencies must be responsible for SLIAG funds used

 for educational services.


Pages 12-13 (Good Practices) -- Several of the " good practices"

described under "Guidelines for Administration" and "systems to

Identify Eligible Legalized Aliens, " as described, appear to be

inconsistent with statutoryis,and  regulatory  requirements.  One
such recommended practice       " surveying the state' s public

assistance, public health assistance, and educational services to

assess the overall needs in providing assistance to eligible

legalized aliens. " A survey of the needs of eligible legalized
aliens for public assistance or public health assistance would

not be an allowable use of SLIAG funds because public assistance

and public health assistance activities that reoeive SLIAG funds

must be generally available. No public assistance or public

health activity, including a needs survey, that is targeted

specifically to eligible legalized aliens could be funded through

SLIAG. (The " generally available" requirement does not apply to
educational services.
The draft report also praises a system which utilizes a

 centralized intake process for all noncitizen applicants for

assistance to assure adequate and accurate delivery of services.

We believe that it would be important to look closely at such a

system to ensure that the " generally available" requirements,

discussed above, for pUblic assistance and public health
assistance were met, and that only allowable costs were charged

to SLIAG.


The draft report further endorses identification of areas of

concern from the alien population by establishing a bilingual

toll free hotline.   This description raises questions not only
regarding the " generally available" requirement, discussed above,
but also regarding the extent to which hotline activities would

meet the statutory and regulatory definition for either public

assistance or public health assistance.

 It also is unclear what is meant by, "forming advocacy and work

 groups to facilitate implementation of SLIAG and generate new

 ideas.
                               B-3

..




     Under "systems to Identify Eligible Legalized Aliens" on pages

     12-13, the 'draft report endorses use of the 1-688 card to

      assure that only the intended population is using SLIAG-funded

     programs. " The final report should clarify that the purpose for

     identifying eligible legalized aliens is to ensure that SLIAG

     funds are being used in accordance with IRCA and Federal

     regulations. Whether an individual is an eligible legalized

     alien cannot affect eligibility for public assistance and public

     health assistance activities for which SLIAG funds are used

     because such activities must be generally available. Whether or

     not educational services are limited to eligible legalized
     aliens, it would be necessary to determine the numer of eligible
     legalized aliens receiving services in order to determine the
     allowable a ount of SLIAG payment for such services.


     The draft report also endorses the practice of using radio

     broadcasts in foreign languages to inform eligible legalized

     aliens of available services. The final report should make clear
     which services are included. The cost of such messages directed

     specifically to eligible legalized aliens could. be funded by
     SLIAG only to the extent that they related to availability of

     educational services. Even so, the cost would come under either

     the state educational agency' s a inistrati ve cost cap or the
     maximum payment provisions that apply to educational providers.


     Similarly, the draft report includes under good practices a

     requirement that organizations offering services to eligible

     legalized aliens develop " significant outreach and public

     relations activities.     The cost of outreach designed .to inform

     eligible legalized aliens of the availability of educational

     services is allowable, but the cost of outreach directed

     specifically to eligible legalized aliens regarding public

     assistance and public health assistance activities would not be

     allowable as a SLIAG-related cost because of the " generally
     available" requirement that IRCA applies to public assistance and

     public health assistance activities. It is    unclear what is meant
     by " public rel tions, " so we cannot determine whether such
     activities could be funded through SLIAG for any activity.


     Finally, the draft report endorses an instruction to " social
     service districts to maintain a list of individuals eligible for
     SLIAG-funded services.   The final report should make clear what
     this statement means, especially in light of the fact that
      social services" are not included in the range of activities for
     which SLIAG funds may be used.

     The final report should either present the practices described in

     such a way to make clear that costs associated with the

     activities in question are allowable or omit them from the list

     of good practices. If the OIG is unable to determine

     definitively that the activities meet SLIAG statutory and


                                   B.4
                                     . -




 regulatory criteria, we would request that the OIG forward to us
 immediatel specific information about any such practices.
                    FINDINGS AND RECOMMENDATIONS


 FINDING: Since 1987,  FSA has held national conferences and
 issued information to States on implementing the SLIAG program.


 COMM: Since      the OIGl   nsite visits in Auqust 1988, we have

 continued to provide assistance to States. We have conducted

 several more workshops and meetings to assist States in

 implementation. In October 1988, we issued a compendium
 incorporating the extensive formal quidance previously provided

 to states on methods of cost documentation. We also have

 provided assistance to individual States in the form of

 correspondence, :telephone consultation, and onsite technical

 assistance. We have conducted initial program reviews of the

 maj or states and are in the process of planning further

 monitoring visits. We request that the final report reflect this

 continuing dialogue with States.
                    application review process created a numer of
 FINDING: The FSA
 significant problems for the Stat  s.  Also, the FSA I
 application review process interfered with the States' ability to
                                                            t. ­
 plan for services.

 COMM: The      draft report says that the time period for
  submission, review, revision and approval of the initial

  application was too short. We agree that it would have been

  preferable to have had a longer period of time between the

  publication of the final. requlation and the deadline for
  submission and approval of FY 1988 and FY 1989 applications.
  However, the final report should note that, because of the way
  IRCA set up the allocation formula, one maj or reason for the
  compressed time frame was that we could not award funds to any-
  State until all States' applications . had been approved. In order
  for us to run fhe allocation formula, which IRCA requires to

  include estimates of costs, we must have approved estimates for

. all States before we can calculate states' allocations.


 The report says no formal appeals process exists if programs or

 costs are denied.   The SLIAG regulation provides that the Grant
 Appeals Board has jurisdiction over issues related to the
 wi thholding and repayment of funds. For other matters, States
 may follow normal procedures for disagreeing with an -agency
 finding.
 RECOMMDATION:      The FSA grant process should be made more
  orderly.
  RESPONSE: The report should make clear that this recommendation

  applies to the SLIAG grant process, not the overall FSA grant

process. We have already made a number of significant changes in

the application and grant award process. As the draft report

 indicates, the timeframes for the FY 1988 and FY 1989

 application processes were necessarily short. In effect, the

 states and FSA had to complete two application processes in less

 than a year. We do not expect similar problems for the FY 1990

 and FY 1991 application processes.


 To ensure that states have adequate ' time to prepare their FY
 1990 applications based on empirical data, we have extendedwe
                                                               the
                                                                have
 deadline from July 15 to October  1,  1989.  Additionally,
 encouraged states to submit as early as possible any new
 programs, questions, or issues, and have advised them that they

 may submit all or portions of their applications at any time.

 All comments on states' submissions now are written. We issued

 extensive written guidance on the FY 1990 application process and
 the standards we will apply in reviewing applications.

 The draft report on page 5 recommends that we " revise the grant
 award process for approved application so that notice of grant
 award reaches the states prior to the beginning of the fiscal
 year. Under the regulation, that is not possible. 1,  For FY 1990,
 the deadline for submitting applications is October     1989, and
 applications must be approvable by December 15, 1989. While
 cannot run the allQcation formula or award grants until all
 States' applications are approved, we expect to run the formula
 in January 1990. However, states have told us that, because they
 have FY 1988 and FY 1989 funding that they can carry over into
                                               them.  For FY 1991,
 FY 1990, the delay will not be a problem for
 the deadline for filing applications is July  15, 1990, and
 applications must be approvable by October 1, 1990. We expect
 to run the allocation formula and prepare grant awards early in
 FY 1991.
  The draft report also recommends that we develop an appeals

  process to use if programs or costs associated with providing

  services are d nied in the initial application process.    The
  Department' s Grant Appeals Boa d already has jurisdiction
                                                   funds. .
                                                              over
                                                            Normal
  cases involving the repayment or withholding of 

. channels wi thin the Department are open to states that disagree

  with decisions made during the course of application review.


  FIlrDING: The FSA' s definition of public assistance includes some

  public health activities. This created administrative and

  service delivery problems for states' public health agencies.


  COMM:     We question how the definitions of public health and
  public assistance create service delivery problems for state

  public health agencies. By statute and regulation, all programs
  or activities under both categories must be generally available.
  In practice, this means that SLIAG funds are available only to
  reimburse costs in ongoing, generally available programs.
 most programs, immigration status is not a condition of

 eli9ibilit    (The draft report notes that undocumented aliens
 access public health assistance services. If the alien is
 eligible for services, he or she would receive those services

 regardless of wh ther they were reimbursed under SLIAG. The

 final report should clarify this point.


 Pag 6 of the draft report notes that "there is no quarrel with
 the logic of FSA' s definition of. public assistance versus public
 health, " but does not explain that logic or why the OIG
 recommends that FSA reverse -its logic.   The final report should
    lain that the regulatory definitions of public assistance and
 public health assistance are based directly on section 204 of
 the Immigration Reform and Control Act of 1986 (IRCA), which
 crea ted   SLIAG. .
 Programs of public assistance are defined as programs that

  provide for cash, medical or other assistance.. . desianed to

 meet the bas c subsistence or health needs of individuals

 (section 204 (j) (2) (A) emphasis added). consistent with IRCAt

 explicit inclusion of medical assistance under the public

 assistance category, state or locally funded programs that

 provide medical treatment to needy individuals are considered by

 FSA to be p lic assistance.


  IRCA defines programs of public health assistance as programs
 which " provide   public health services, including immunizations
  for immunizable diseases, testing and treatment for tuberculosis
  and sexually-transmitted diseases, and family planning services"
  (section 204 (j) (3) (A) )   These statutory definitions and the
  legislative histo       indicate that Congress intended to allow
  certain traditional public health functions under the public
  heal th assistance category and medical assistance to the needy
  under the public assistance category. In implementing SLIAG, we
  have followed that statutory framework. We have defined public
  health assistance as, among other things, programs or activities
  that " are provided for the primary purpose of protecting the
                                            2).
  heal th of the general public" (45 CFR 402.        The scope of
. programs included in that. regulatory definition of public health
  assistance goes far beyond the specific activities listed in the
  IRCA.
 Regarding the draft report' s concern, on page 6, that aliens
  often enter the country with highly contagious diseases.. . and
 need treatment immediately, " the final report should note that

 the treatment of dangerous contagious diseases, including

 tuberculosis and sexually transmitted diseases, is included in

 the statutory and regulatory definition of public health

  assistance.
  The public assistance/public health assistance categorization

  issue is primarily one of cost documentation requirements, not

the allowability of costs associated with any particular health

program.                   e permit states to use the population ratio method to

establish costs for all programs that are allowable as publi
heal th assistance, as defined in the statute and regulation
governing SLIAG. . This method may be used to establish actual
costs and involves merely performing a mathematical calculation
with easily available aggregate population and program cost data.
Implicit in this method is the assumption that eligible legalized
aliens will access programs in the same frequency and at the same
cost as the general population. We do not believe this
assumption to be appropriate for medical assistance programs that
provide treatment to needy individuals, i. e., what the . statute
defines as a public assistance program. To the contrary, the
information that we have to date indicates that allowing use of
the population 
                atio method for these programs generally would
overstate costs; dramatically in some cases. However, we would
be willing to allow use of the population ratio method for any
program for which there is an
                emDirica1 basis to indicate that

doing so would not overstate costs.
FSA realizes that many public assistance and public health
programs do not routinely collect information on immigration
status but has found many do collect social security numbers.
That is why we funded and devoted substantial resources to
developing a system that will match the social security numers
of program participants with those of newly legalized aliens.
This system gives states information on the numer of newly
legalized aliens participating in a program and the cost of
 services to them. It is now available and allows States to
establish costs for FY 1988 as well as current and future years.
In May, we sent state SLIAG Single Points of Contact suggestions
for other possible methods for establishing costs. None of these
alternative methods requires setting up new administrative
mechanisms or checking status of all program participants.

 We will continue to work closely with states to develop

 methodologies fo document costs for all programs in its approved

 applications.
 RECOMMDATION: The FSA should reconsider its position to
 classify certain public health - services as public assistance and

 make appropriate adjustments to this position.


 RESPONSE: As discussed above, the primary issue relating to the

 definitions of public assistance and public health assistance is

 one of cost documentation. states would like to use the

 population ratio method for all programs run by their health

 departments. The final report should clarify whether the OIG is

 recommending that we allow use of the population ratio in

 programs where, as discussed above, its use would likely

  overstate actual costs. 

We believe that using the population method for all programs run

by state h al th departments would be inconsistent with our
responsibility to exercise fiscal responsibility in administering
SLIAG funds. However, we recognize that some states may
encounter difficplties in establishing actual costs, especially
where ELAs are a small percentage of a State' s population or for

programs that few ELAs access. We will continue to work with

states to ensure that a method is available to allow them to

establish actual costs for each program in their approved

applications, consistent with our responsibilities as stewards of

public funds.


FINDING: Conflicting      interpretation of the term " public charge"
has   caused uncertainties for the al iens as to what services they
are   entitled to , receive without fear of deportation.
RECOMMATION: The FSA and the INS should further clarify what
is meant by " public charge" and widely disseminate this

information to the aliens who have raised concerns about their

resident status. 

RESPONSE: Under IRCA and the Immigration and Nationality Act,

the INS alone is responsible for determining whether individuals

are likely to become public charges. FSA cannot establish policy

on this issue. Nor can FSA disseminate information directly to

the alien population.  INS is precluded by IRCA from providing
names and addresses of eligible legalized aliens to outside

agencies.
However, we agree that it is important that all concerned know

INS policy on the public charge issue. We note that the INS

Phase II regulation clarifies this    issue.
                                           Additionally, INS
representatives have made presentations at virtually all of our

workshops and conferences. At these meetings, States have been

able to ask questions and receive direct information from the

INS. We have communicated to States all information provided to


receive.
us by INS on tgis and other pertinent issues, and will continue

our policy of disseminating any relevant information that we



The Department also has indicated its support for a legislative

change to allow States to use a small portion of their SLIAG

 rants to inform temporary residents of the requirements for

adjustment to lawtul permanent resident status and of the rights

and responsibilities of lawful temporary residents. Such use is

not permitted under current l&w.

FINDING: The FSA I s policy of denying payments for services
rendered by community-based organizations and qualified
designated entities prior to the application approval date caused
difficulties.
  COMMNT: ,we have no such policy. Under the , SLIAG regulation,
  any allowable public assistance or educational services cost
  incurred by a state since October 1, 1987 may be reimbursed with
  SLIAG funds. Any allowable public health assistance or SLIAG
  administrative  ost incurred after November 6, 1986 may be

  reimbursed with SLIAG funds.

  We have encouraged states that enter into contracts with an

  effective date before the date of execution to be sure that all

  costs covered under such contracts are properly documented.


  RECOMMATION: The FSA should analyze the effect of its policy
  to deny retroactive payment to ' community-based organizations and
  qualified designated entities for services rendered in good
  faith, and dete ine whether a modification to its position would

  be warranted.


  RESPONSE:   As noted above, we have no such policy.

  FINDING: States were  unable to access minimal eligible
  legalized alien information in INS   files.
  RECOMMATION: The FSA should arrange for INS to conduct
  matches of State and INS records to permit the States to make
  retroactive determinations of eligibility for SLIAG service
  REPONSE: In March   1988, FSA conceived the idea of setting up a
  computerized matching system that would allow States to use
  social security numers of program participants instead of
  checking immigration status to document program participation by
  eligible legalized aliens. We received outstanding cooperation
  from the Social Security Ad inistration, the INS, and the General
  Services Administration. Barely 14 months after the idea was
  conceived, the system was set up, problems and concerns about
  confidentiality and system reliability were addressed and solved,
  and States were getting cost data from the system.

  This recommendation is superfluous and should be omitted because

. the - system was fully operational two months before the draft

  report was issued.


  The final report should refrain from using the phrase,
   eligibility for SLIAG services.   This phrase, used on page
  implies that there are activities funded totally by SLIAG or that
  services directed specifically to this population may be funded
  by SLIAG. That is     true only for educational services. Public
  assistance and pUblic health assistance programs may receive
  SLIAG funds only if they are generally available, i. e., that
  status as a legalized alien is not a factor in determining
  program eligibility. Thus, there are no "SLIAG services" in the
  public assistance or public health assistance categories.
                                           . ..




 FINDING: Some States' systems and procedures to identify

 eligible l galized aliens were nonexistent or only in

 developmental stages at the time of this review.

 RECOMMATION: The FSA should follow up with the states to

 ensure proper prbcedures and systems have been implemented to

 account for SLIAG services.


 RESPONSE: It is unclear what is meant by the term, "SLIAG

 services.    (For reasons discussed above, this phrase is

 misleading. ) However, it appears that the intent of the draft

 report is to recommend that the FSA ensure that States are using

 SLIAG funds properly. The FSA reviews State end-of- year reports
 to ensure that costs charged to SLIAG have been calculated
 properly.  Additionally, we are monitoring states' use of SLIAG
 funds on an ongoing basis. In October 1988, we issued a

 compendium of previous qui dance on acceptable
                                            I to methods to

 calculate SLIAG-related costs and cautions 
    States in
 determining those costs.
 FINDING: SLIAG  funds allotted to the States greatly exceed
 actual expenditures to date.


 COMM: We     agree with the OIG'S conclusion, that SLIAG funding
 for FY 1990 and FY 1991 should be reduced. But we believe that
 the draft report' s discussion of this topic is premised on some
 basic misunderstandings of the SLIAG program.

  First, the draft report on page 8, says, "    only 1. 7 ' million
  aliens had applied for amnesty under the eligible legalized

  aliens provisions of the Act. This is below the estimated 2 to 4

  million that were originally expected to be eligible for SLIAG-

  related services.   The 1. 7 million refers only to applicants
  under section 245A of the Immigration and Nationality Act. The
  draft report omits Special Agricultural Workers that bring the
 total  numer of applicants who, if granted status, would be
  eligible legalized aliens to 3. 1 million. The draft report also
  fails to note that Replenishment Agricultural Workers will be
  eligible legalized aliens. We do not at this time know whether

. or how many aliens will be granted legal status under the
  Replenishment Agricultural Worker program, but the Secretaries of
  Agriculture and Labor notified the INS that it should prepare to
  implement the program, and the numers could be substantial.

  Throughout the draft report, the OIG appears to approach SLIAG as
  a program that provides services to eligible legalized aliens.
  This is true only for the education component. IRCA limits use
  of SLIAG funds for public assistance and public health assistance
                                                  " i.
  programs to those that are " generally available,    e., those
  ongoing in which an individual' s status as a newly legalized
  alien does not affect eligibility. This means that, in these two
  program areas, there is no direct relationship between SLIAG
. ,
   . .




       funding and service availability. Instead, SLIAG functions to

       transfer Federal revenue to state and local governments to

       reimburse costs that they incur in ongoing programs to provide

       public assistance and pubiic health assistance services to this

       population.
       As the OIG points out, states are having some difficulty

       documenting costs, but we expect that ultimately they will be

       able to do so. For example, many states already are establishing

       costs through the Cost Documentation System, discussed below, or

       through some of the alternative methods allowed by the

       regulation.  Whenever these costs are established, Sta es will be
       able to draw down SLIAG reimbursement. Thus, we have a
       contingent liability.

       We agree with the OIG that this contingent liability is likely to
       be substantially less than current state estimates which total
       approximately $3. 3 billion through FY 1994.   (Under IRCA, states
       have through FY 1994 to obligate SLIAG funds.     We also agree
       that there still is some uncertainty about the rate at which
       newly legalized aliens are accessing public services. But we
       strongly disagree that the level of drawdown to date is a good
       indicator of FY 1988 and FY 1989 costs. As States establish
       costs- , they can be expected to increase their drawdowns
       substantially. T tie our recommendations for SLIAG funding to
       drawdowns that dramatically understate allowable costs undermines
       the valid policy reasons for re-examining SLIAG funding levels.

       RECOMMDATION: FSA should request the Congress to suspend the
        FY 1991 appropriation of $1 billion until an accurate assessment
        can be made of state financial needs under SLIAG. Alternatively,
        the appropriations for FYs 1990 and 1991 should be reduced by
        $500 million.

        RESPONSE: As noted above, we believe States will incur costs
        that total nearly the amount made available under current law.
        However, there are good policy and budgetary reasons for reducing
        funding levels. We defer to the Secretary' s recommendations for
       . specific funding levels. 

        The draft report suggests that providing States with

        substantially more in funding than they have in legitimate costs

        can lead to wasteful use of SLIAG funds. We agree, but we do not

        believe that reducing SLIAG funding for FY 1990 and FY 1991
        eliminates that danger. States   have substantially more funds
        than they can document in costs  now   We believe that the time of
        greatest danger for wasteful spending is now, when states do not
        know the full extent of their costs and when they may be seeking
        to generate costs to justify continued funding. This is why we
        already have begun an on- going monitoring program and will
        continue to monitor state programs closely to ensure that use of
        SLIAG funds is necessary, reasonable, and allocable to SLIAG.
, -   ..-..
        .' - .                                                         '- . -   - '-   -. - - . -,_.




      I '





                 We believe that a strong case can be made for reducing SLIAG
                 funding fdr several reasons that do not relate to drawdown, or
                 even to what the eventual total of state costs may be.                                          First,
                 the legislative histo                                 indicates that Congress created SLIAG to
                 alleviate some of the fiscal 
                             imDact it expected the legalization
                 program to create for state and local governments. Two of those
                 anticipated impacts have occurred. The first is the temporary
                 "bulge II in demand for public health services created when medical
                 problems were identified in the physical examinations required of
                 legalization applicants. The second impact on state and local
                 governments is the need by " pre-82" aliens for educational

                 services in order to meet the English language and citizenship

                 requirements for permanent residency. Funding already made

                 available to states is more than sufficient to meet 

                                                                                                    he costs

                 generated by both of these                               factors.
                 As noted above, . SLIAG funding
                                               has no direct effect on the
                                                                         Once                          aliens.
                 availability of services to eligible legalized
                  pre-82" aliens have met their permanent residence status, we
                 question the extent to which newly legalized aliens should be
                 given continued preferential access to educational services.


                 For these reasons, we believe tha an examination of SLIAG
                 funding needs, balanced with other higher priority needs , leads
                 naturally to a decision to reduce SLIAG funding substantially for
                 FY 1990 and FY 1991.
